<html>
<title> - THE FUTURE OF FOSSIL: ENERGY TECHNOLOGIES LEADING THE WAY</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




 
                         THE FUTURE OF FOSSIL:
                          ENERGY TECHNOLOGIES
                            LEADING THE WAY

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                        SUBCOMMITTEE ON ENERGY &
                      SUBCOMMITTEE ON ENVIRONMENT

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 17, 2018

                               __________

                           Serial No. 115-70

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 
 
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 




       Available via the World Wide Web: http://science.house.gov
       
       
       
                              _________ 

                   U.S. GOVERNMENT PUBLISHING OFFICE
                   
30-880 PDF                  WASHINGTON : 2018            
       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         ZOE LOFGREN, California
MO BROOKS, Alabama                   DANIEL LIPINSKI, Illinois
RANDY HULTGREN, Illinois             SUZANNE BONAMICI, Oregon
BILL POSEY, Florida                  AMI BERA, California
THOMAS MASSIE, Kentucky              ELIZABETH H. ESTY, Connecticut
RANDY K. WEBER, Texas                MARC A. VEASEY, Texas
STEPHEN KNIGHT, California           DONALD S. BEYER, JR., Virginia
BRIAN BABIN, Texas                   JACKY ROSEN, Nevada
BARBARA COMSTOCK, Virginia           CONOR LAMB, Pennsylvania
BARRY LOUDERMILK, Georgia            JERRY McNERNEY, California
RALPH LEE ABRAHAM, Louisiana         ED PERLMUTTER, Colorado
GARY PALMER, Alabama                 PAUL TONKO, New York
DANIEL WEBSTER, Florida              BILL FOSTER, Illinois
ANDY BIGGS, Arizona                  MARK TAKANO, California
ROGER W. MARSHALL, Kansas            COLLEEN HANABUSA, Hawaii
NEAL P. DUNN, Florida                CHARLIE CRIST, Florida
CLAY HIGGINS, Louisiana
RALPH NORMAN, South Carolina
DEBBIE LESKO, Arizona
                                 ------                                

                         Subcommittee on Energy

                   HON. RANDY K. WEBER, Texas, Chair
DANA ROHRABACHER, California         MARC A. VEASEY, Texas, Ranking 
FRANK D. LUCAS, Oklahoma                 Member
MO BROOKS, Alabama                   ZOE LOFGREN, California
RANDY HULTGREN, Illinois             DANIEL LIPINSKI, Illinois
THOMAS MASSIE, Kentucky              JACKY ROSEN, Nevada
STEPHEN KNIGHT, California           JERRY McNERNEY, California
GARY PALMER, Alabama                 PAUL TONKO, New York
DANIEL WEBSTER, Florida              BILL FOSTER, Illinois
NEAL P. DUNN, Florida                MARK TAKANO, California
RALPH NORMAN, South Carolina         EDDIE BERNICE JOHNSON, Texas
LAMAR S. SMITH, Texas
                                 ------                                

                      Subcommittee on Environment

                       ANDY BIGGS, Arizona, Chair
DANA ROHRABACHER, California         SUZANNE BONAMICI, Oregon, Ranking 
BILL POSEY, Florida                      Member
MO BROOKS, Alabama                   COLLEEN HANABUSA, Hawaii
RANDY K. WEBER, Texas                CHARLIE CRIST, Florida
BRIAN BABIN, Texas                   CONOR LAMB, Pennsylvania
GARY PALMER, Alabama                 EDDIE BERNICE JOHNSON, Texas
CLAY HIGGINS, Louisiana
RALPH NORMAN, South Carolina, Vice 
    Chair
DEBBIE LESKO, Arizona
LAMAR S. SMITH, Texas


                            C O N T E N T S

                             July 17, 2018

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Randy K. Weber, Chairman, 
  Subcommittee on Energy, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     4
    Written Statement............................................     6

Statement by Representative Marc A. Veasey, Ranking Member, 
  Subcommittee on Energy, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     8
    Written Statement............................................    10

Statement by Representative Andy Biggs, Chairman, Subcommittee on 
  Environment, Committee on Science, Space, and Technology, U.S. 
  House of Representatives.......................................    12
    Written Statement............................................    14

Statement by Representative Suzanne Bonamici, Ranking Member, 
  Subcommittee on Environment, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    16
    Written Statement............................................    18

Statement by Representative Lamar Smith, Chairman, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..    20
    Written Statement............................................    21

Statement by Representative Eddie Bernice Johnson, Ranking 
  Member, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................    23
    Written Statement............................................    25

                               Witnesses:

Dr. Roger Aines, Senior Scientist, Atmospheric, Earth and Energy 
  Division, Lawrence Livermore National Laboratory
    Oral Statement...............................................    28
    Written Statement............................................    30

Dr. Klaus Brun, Program Director, Machinery Program, Fluids & 
  Machinery Engineering Department, Southwest Research Institute
    Oral Statement...............................................    42
    Written Statement............................................    44

Ms. Shannon Angielski, Executive Director, Carbon Utilization 
  Research Council
    Oral Statement...............................................    66
    Written Statement............................................    69

Mr. Jason Begger, Executive Director, Wyoming Infrastructure 
  Authority
    Oral Statement...............................................    84
    Written Statement............................................    93

Discussion.......................................................   110

             Appendix I: Answers to Post-Hearing Questions

Mr. Jason Begger, Executive Director, Wyoming Infrastructure 
  Authority......................................................   110

            Appendix II: Additional Material for the Record

Document submitted by Representative Neal P. Dunn, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..   114


                         THE FUTURE OF FOSSIL:



                  AENERGY TECHNOLOGIES LEADING THE WAY

                              ----------                              


                         TUESDAY, JULY 17, 2018

                  House of Representatives,
                         Subcommittee on Energy and
                       Subcommittee on Environment,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittees met, pursuant to call, at 10:10 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Randy 
Weber [Chairman of the Subcommittee on Energy] presiding.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Weber. The Committee on Science, Space, and 
Technology will come to order.
    Without objection, the Chair is authorized to declare 
recess of the Subcommittees at any time.
    Good morning, and welcome to today's hearing titled, ``The 
Future of Fossil: Energy Technologies Leading the Way.'' I now 
recognize myself for five minutes for an opening statement.
    This morning, we will examine the status of the early-stage 
research performed by industry, nonprofit institutes, and the 
Department of Energy national laboratories to enable 
advancements in fossil energy technologies. Global demand for 
fossil fuels will hold steady in the near term and is projected 
to increase far into the future. Our abundant natural 
resources, including coal, oil, and natural gas, can and should 
be produced to meet this demand. However, these fuels should be 
utilized with efficient technologies that minimize the 
environmental impact.
    Early-stage research funded by the Federal Government, 
coupled with efforts to develop new technologies by the energy 
industry, are critical to ensuring we can use our resources 
long into the future. Over the years, this partnership between 
the labs and industry has led to the development of advanced 
scrubber technologies to significantly reduce the release of 
NOx, SOx, and other unwanted byproducts from fossil-based power 
plants.
    Because of this technology-led success, today, we can often 
focus on another byproduct of fossil power production, that 
being carbon dioxide. But unlike other emissions, carbon 
dioxide can potentially have a number of key uses in industrial 
applications. As our knowledge in chemistry advances, so does 
our ability to capture and repurpose carbon waste as an 
industrial product. These utilization technologies have the 
potential to convert carbon dioxide into building materials or 
even reuse CO<INF>2</INF> as part of the power generation cycle 
instead of steam.
    Because of the potential benefits to this technology, 
industry is investing in research to advance carbon 
utilization. This industry engagement has advanced 
independently of any federal regulation and combines private-
sector investment and the tools and technical assistance 
provided by national labs, state research facilities, as well 
as universities.
    Early-stage research in the national laboratory system also 
supports the development of new energy production technologies. 
An example, at Lawrence Livermore National Laboratory, 
researchers have developed a 3-D printed polymer that uses 
bacteria to convert methane, the primary component of natural 
gas, into methanol at room temperature and pressure. This 
technology has the potential to reduce any methane leaked from 
natural gas production by cost-effectively capturing and 
converting it to liquid methanol at small scales. This research 
led by the national labs can now be taken up by industry to 
improve the extraction and efficient use of natural gas 
products. This partnership is a win-win for science, for 
energy, and for the environment.
    However, in recent years, the use of our limited taxpayer 
research and development dollars has kind of shifted away from 
fundamental research like this to the support of large-scale 
technology demonstration projects, one that industry has the 
ability to fund on its own. The research community and the 
private industry would be better served if we focused federal 
investment on the early-stage research that has a proven track 
record of producing transformative energy technologies.
    I want to thank our panel of witnesses for their testimony 
today, and I look forward to hearing what role Congress should 
play in advancing fossil energy research.
    [The prepared statement of Chairman Weber follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Chairman Weber. I now yield to the Ranking Member, Mr. 
Veasey.
    Mr. Veasey. Thank you, Mr. Chairman, for holding this 
hearing, and thank you to the witnesses for being here today.
    Fossil fuels currently account for about 60 percent of our 
electricity generation in the United States, and they will 
likely continue to command a large market share of this for 
decades to come. Power plants are now the second-largest source 
of greenhouse gas emissions, just a bit behind the 
transportation sector.
    Reducing these emissions and finding technology solutions 
to these realities is a very pressing challenge. It's going to 
require stable public investment in our academic institutions 
and national labs, alongside significant partnerships with the 
private industry.
    That is why in May I introduced H.R. 5745, the bipartisan 
Fossil Energy Research and Development Act of 2018. I was 
joined by my colleagues Mr. McKinley from West Virginia and our 
committee's Ranking Member Ms. Johnson.
    This bill would authorize critical activities within DOE's 
Office of Fossil Energy. This office is responsible for 
stewarding research to reduce emissions, improve efficiency, 
and mitigate the environmental impacts of energy generation 
from fossil fuels. A large portion of this research focuses on 
developing carbon-capture technologies and demonstrating the 
use and storage methods for the captured CO<INF>2</INF>.
    H.R. 5745 would authorize and expand research, development, 
and demonstration of these technologies for power plants, 
including large-scale pilot projects that would fill a vital 
gap in DOE's current portfolio of projects in this area.
    The bill also authorizes R&D activities in carbon storage, 
rare earth elements, and carbon utilization, which I understand 
we will hear more about from Dr. Aines shortly. It also 
supports significant improvements in efficiency, including the 
development of supercritical CO<INF>2</INF> technologies, which 
I know we'll hear more about from Dr. Brun this morning.
    In addition, the bill would launch important new 
initiatives in carbon dioxide removal, methane leak detection, 
mitigation, and carbon dioxide pipelines.
    And finally, it would put in place key reforms to DOE's 
fossil energy lab, the National Energy Technology Laboratory, 
located in West Virginia and Oregon. Authorizing these 
technologies would also benefit the environment, our economy, 
and potentially provide technology solutions to global partners 
aiming to cut emissions.
    The critical work authorized in this bill is supported by a 
diverse array of stakeholders, including representatives from 
industry, academia, labor, and environmental organizations. Two 
major U.S. coalition groups representing a large interested--
representing a large group of interested stakeholders on these 
issues, the Carbon Utilization Research Council, represented by 
its Director Ms. Angielski is here today; and the Carbon 
Capture Coalition have endorsed this bill.
    And without objection, Mr. Chairman, I would like to submit 
this letter of support for the bill from the American federal 
government Employees Union for the record.
    Chairman Weber. Without objection.
    [The information appears in Appendix II]
    Mr. Veasey. In closing, I would like to strongly encourage 
all of my colleagues on the committee to consider cosponsoring 
H.R. 5745, and I look forward to discussing the best ways we 
can move these technologies with this excellent panel of 
witnesses that we have today.
    And, Mr. Chairman, I yield back the balance of my time.
    [The prepared statement of Mr. Veasey follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
      
    Chairman Weber. Thank you, sir.
    I now recognize Mr. Biggs, Arizona. Chairman?
    Chairman Smith. Thank you--go on. I forgot. You go on.
    Mr. Biggs. Thank you, Mr. Chairman and Mr. Chairman.
    Good morning, and welcome to today's joint Environment 
Subcommittee and Energy Subcommittee hearing on fossil energy 
technologies. I thank our witnesses for being here. I look 
forward to hearing their interesting testimony today after 
reading their submissions.
    Today, we will discuss cutting-edge fossil energy 
technologies that will both advance our Nation's environmental 
interests, as well as maintain American energy dominance. Like 
it or not, power generated by fossil fuels is and will continue 
to be America's core source of base load electricity. 
Unfortunately, due to regulations and a media-garnered negative 
public perception, the fossil fuel industry is under constant 
attack. Moreover, these regulations result in more economic 
harm than environmental gain in the way of job loss and higher 
utility bills for hardworking Americans.
    Today's hearing will focus on technologies that, when 
commercialized, can both boost the economy and clean our air 
for generations to come. The reality is that there is no 
reliable and affordable alternative to fossil-fuel-generated 
power at this time. As a result, fossil fuels will continue to 
support economic and infrastructure development both here in 
the United States and abroad.
    As we learned from our recent hearing on climate 
adaptation, a strong economy and reliable infrastructure is 
necessary to protect against potential environmental harm. 
Shuttering a coal power plant in Arizona will not mitigate the 
effects of sea level rise in California. That effort requires 
advanced building materials and a reliable grid, all things 
made possible by fossil fuels.
    The question remains: How do we balance the apparent need 
for fossil fuels with a call for lowering the amount of carbon 
dioxide in our atmosphere? We do that by incentivizing the 
creation of technologies that capture the carbon before it 
leaves the power station and developing innovative ways to use 
that captured carbon for commercial purposes.
    Those technologies, known as carbon capture, utilization, 
and sequestration--or CCUS--present a win-win for America. 
Rather than be emitted into the atmosphere, CCUS gives us the 
opportunity to convert carbon dioxide into a useful commodity. 
Not only do these technologies allow for the continued 
viability of the existing fleet of fossil fuel plants, but they 
create the prospect for new industry sectors altogether.
    While the Federal Government certainly plays a role in 
foundational research in this area, the private sector is best 
situated to innovate and scale up these technologies. One 
example we will hear more about today is the Wyoming Integrated 
Test Center, or ITC. The ITC is a public-private partnership 
that has received no federal funds. Located at the coal-powered 
Basin Electric Power Plant outside Gillette, Wyoming, the 
facility is set up as a testing site for researchers to scale 
up technologies designed to convert carbon dioxide into 
commercially viable products like building materials and 
plastics.
    Facilities like the ITC are why America is the leader in 
CCUS technology. As the production and demand for fossil fuels 
continue to grow worldwide, it is essential for Congress to 
continue to encourage innovation in this area.
    Again, I thank the witnesses for being here today. I look 
forward to learning more about their interesting work in 
government and the private sector.
    With that, I yield back.
    [The prepared statement of Mr. Biggs follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    Chairman Weber. Thank you, sir. The Chair now recognizes 
the gentlelady from Oregon, Ms. Bonamici.
    Ms. Bonamici. Thank you, Mr. Chairman.
    Our Nation is facing a serious confluence of factors 
affecting our energy policy: a growing global demand for 
energy, a heavy reliance on fossil fuels, high energy prices, 
and climate change resulting from harmful emissions.
    In 2015, the Energy Information Administration found that 
fossil fuel usage accounted for nearly 82 percent of all energy 
consumption in the United States. This was the lowest share in 
the previous 100 years but still demonstrates our dependence on 
fossil fuels.
    The dangers to our climate and environment from the carbon 
emissions generated from fossil fuel production and use have 
been studied and confirmed. It is more important than ever that 
we develop a comprehensive national energy policy that includes 
a greater emphasis on investing more, not less, in research and 
development programs to improve efficiency and reduce emissions 
to keep our air and water clean.
    In Oregon, we are leading the nation to decrease our 
reliance on fossil fuels with our robust renewable energy 
portfolio of solar and wind resources. By focusing our 
investments on renewable resources, we not only protect our 
environment, but we also have the opportunity to support new 
industries, new jobs, and innovative small businesses that are 
developing clean-energy technologies. During the transition, 
and for States not making similar commitments yet, fossil fuels 
must be used in a responsible way that mitigates environmental 
harm.
    The Department of Energy's Office of Fossil Energy supports 
research on ways to reduce the negative environmental effects 
of using and developing fossil energy resources. This includes 
improvements to the efficiencies of a wide range of fossil and 
non-fossil-fueled power plants through the advancements of 
technologies such as supercritical carbon dioxide power cycles. 
Much of this cutting-edge research is conducted at DOE 
laboratories, including the National Energy Technology 
Laboratory, NETL, in Albany, Oregon. The lab is also advancing 
affordable carbon-capture technologies that reduce emissions 
and use captured carbon dioxide to increase domestic oil 
production from depleted oil fields.
    Despite these innovative efforts at the Department of 
Energy, this Administration has sent inconsistent messages 
about fossil energy technologies. President Trump has 
highlighted the need for clean coal and has worked to bolster 
fossil industries but has simultaneously attempted to slash 
funding for the critical federal research supported by the 
Office of Fossil Energy in his fiscal year 2019 budget request.
    As a result of strong collaborative efforts between federal 
and nonfederal partners, the United States is considered a 
leader in the development of various innovative fossil energy 
technologies such as carbon capture and storage. Underfunding 
these activities could ultimately cede American leadership in 
the rapidly developing low-carbon economy.
    As members of the Science Committee, we should be 
encouraging the Department of Energy to continue supporting 
unparalleled research into environmental mitigation strategies 
for fossil fuels that would otherwise not be pursued by the 
private sector. Until we regulate carbon emissions in the 
United States to drive innovation in the private sector, 
government-sponsored research is critical to fill the gaps in 
the market. Through these investments, there is tremendous 
opportunity for the United States to promote a healthier 
environment and become a leading exporter rather than importer 
of the next generation of fossil energy technologies.
    I am pleased to see a well-rounded witness panel today to 
discuss the successful partnership between federal, state, and 
private-sector researchers in this field. I look forward to 
learning more about current technologies used to mitigate the 
environmental effects associated with the production and use of 
fossil fuels and the innovations that can support a new 
national energy policy.
    Thank you, Mr. Chairman. I yield back the balance of my 
time.
    [The prepared statement of Ms. Bonamici follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    Chairman Weber. Thank you, ma'am. The Chair now recognizes 
the Chairman of the full committee, Mr. Lamar Smith of Texas.
    Chairman Smith. Thank you, Mr. Chairman.
    Energy produced from fossil fuel is abundant, affordable 
and vital to America's security and competitiveness. As global 
demand for fossil fuel energy increases, America is on tap to 
become a net energy exporter.
    The research done at Department of Energy national 
laboratories is vital to increasing the fossil fuels' 
efficiency and reducing environmental impacts of this vital 
power source. Basic science discoveries at DOE national labs 
have led to a range of technological innovations used by 
private industry in fossil energy production and fossil power 
systems.
    From horizontal drilling and hydraulic fracturing, to 
improved sensors and geologic mapping, we've seen dramatic 
improvements in fossil fuel production technology that was 
developed from research conducted in the DOE lab system. For 
example, field engineers today are using augmented reality and 
virtual reality technologies in maintenance, operations, and 
exploration of reservoirs. Using this technology in the field 
can reduce the environmental footprint of energy production and 
increase oil and gas production as well.
    And in fossil power production, new approaches like the use 
of supercritical carbon dioxide power systems can replace the 
use of steam power, improving efficiency and potentially 
producing virtually carbon-free energy. The Southwest Research 
Institute, located near my district in San Antonio, is 
partnering with DOE to lead early-stage research efforts in 
developing these supercritical CO<INF>2</INF> systems.
    In the past, the DOE's Office of Fossil Energy Research and 
Development programs focused primarily on reducing emissions 
from fossil power. While research on carbon capture, storage, 
and sequestration technologies remains a priority, there is 
also potential to research ways to use carbon as an energy 
resource, rather than only considering it as a waste product.
    At the National Energy Technology Laboratory, DOE is 
funding basic research to create usable substances from carbon 
waste, such as concrete or plastics. If these techniques are 
commercialized by industry, they could provide added revenue 
for fossil power plants, making carbon capture a cost-effective 
method to reduce emissions.
    DOE's early-stage research should focus on developing a 
broad range of innovative technologies to improve the 
efficiency and effectiveness of fossil fuels, allowing us to 
use all our natural resources long into the future.
    I look forward to hearing about the promise of fossil 
energy technologies from our witnesses today and how DOE-funded 
research supports technological innovations that improve the 
efficiency, environmental impact, and safety of fossil fuels.
    And I yield back, Mr. Chairman.
    [The prepared statement of Chairman Smith follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    Chairman Weber. Thank you, sir. And the Chair now 
recognizes the gentlelady from Texas, the Ranking Member of the 
full Committee, Ms. Johnson.
    Ms. Johnson. Thank you very much, Mr. Chairman, and let me 
welcome our witnesses. I want to express my appreciation to 
both Chairman Weber and Chairman Biggs and our distinguished 
Ranking Members for holding this hearing to discuss the future 
of fossil energy.
    Certainly, we have seen how advances in science and 
engineering can produce large-scale economic value in this 
sector, and historically, our federal R&D agencies have played 
a major historic role in this process.
    Just over a decade ago, we had a little--little idea of the 
fossil resources that would be available to us today. However, 
due to some critical research investments made by the 
Department of Energy over 40 years ago, coupled with rising oil 
prices in recent decades, the United States underwent the shale 
gas revolution that brought major natural gas resources online, 
and with it, a sharp increase in domestic oil production.
    That DOE program wrapped up in the early '90s when a 
private company took that federally supported research and used 
it to trigger the oil and gas boom we see today. I think my 
colleagues would agree that that is the model for DOE's energy 
technology programs we all hope to see, federal investments 
shepherding transformational technologies to the marketplace, 
even when the endpoint is not clear at the beginning of the 
process.
    That brings us to what should be the fundamental question 
we consider today: Where should the Department of Energy be 
investing its limited dollars in this area? If the standard of 
identifying a federal role rests on whether the private 
industry has the capacity to invest in R&D, then I think the 
answer to the question is that DOE should focus its investments 
on reducing and wherever possible eliminating the environmental 
impacts of the production and use of these resources. At 
present, there is unfortunately little incentive for industry 
to spend major R&D dollars to protect the environment and even 
less incentive in the private sector to prevent the most 
devastating potential impacts of climate change.
    This is why I am so pleased to cosponsor H.R. 5745, the 
bipartisan Fossil Fuel Research and Development Act of 2018, 
which Ranking Member Veasey and Mr. McKinley and I introduced 
in May. This bill would reauthorize and expand important 
activities to develop and scale up innovative carbon capture, 
utilization, and storage technologies. It would also launch 
vital new initiatives on carbon dioxide removal and methane 
leak detection and mitigation, among other areas.
    In all likelihood, our society will continue to use and 
develop our fossil energy resources for at least several more 
decades, so these technologies will be absolutely critical to 
minimizing the harm they would otherwise cause to our public 
health and to the environment.
    Before I close, I would note that I am surprised that we 
are holding a hearing on DOE's fossil energy technology 
development activities without inviting DOE's Assistant 
Secretary for Fossil Energy to testify. It seems to me that it 
would be important for us to ask him to provide a better 
explanation for why the Administration is proposing a 31 
percent cut to DOE's fossil energy research and development 
activities. This is in stark contrast to the stated positions 
of the President, who has been praising clean coal and vowing 
to end a supposed war on clean coal throughout his time in 
office so far. The rhetoric is not matched by the necessary 
resources, and this committee needs to know why not.
    So I hope that we will have Assistant Secretary Winberg 
before our committee to discuss these issues further in the 
near future. And I look forward to working with the 
Administration and my colleagues on both sides of the aisle in 
the months ahead to steer a better course as we aim to 
accelerate the development and deployment of these next-
generation technologies that could significantly improve our 
environment, our health, and our Nation's economy.
    Thank you and I yield back.
    [The prepared statement of Ms. Johnson follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    Chairman Weber. I thank the gentlelady.
    I will now introduce our witnesses. Our first witness today 
is Dr. Roger Aines, Chief Scientist at Lawrence Livermore 
National Laboratory, LLNL's Energy Program and Senior Scientist 
in the Chemistry, Materials, Earth, and Life Science 
Directorate. Dr. Aines has been at LLNL for over 30 years 
working on nuclear waste disposal, environmental remediation, 
and management of carbon emissions. He previously led LLNL's 
carbon management program, which takes an integrated view of 
the energy climate and environmental aspects of carbon-based 
fuel production and use.
    Dr. Aines holds a bachelor of arts in chemistry from 
Carleton College and a Ph.D. in geochemistry from the 
California Institute of Technology. Welcome, Dr. Aines.
    I now recognize Chairman Smith to introduce our second 
witness.
    Chairman Smith. Thank you, Mr. Chairman.
    It's a privilege to introduce Dr. Klaus Brun, the Machinery 
Program Director at Southwest Research Institute located in San 
Antonio.
    Southwest Research Institute specializes in advancing 
science and applying technology to benefit government, 
industry, and individual American lives.
    Dr. Brun leads an organization of more than 60 scientists 
who focus on research and development for the energy industry. 
He is internationally recognized for his expertise in energy 
systems, power generation, and turbomachinery.
    Dr. Brun holds a bachelor of science from the University of 
Florida and a master of science and Ph.D. both in mechanical 
engineering from the University of Virginia. He is a Fellow of 
the American Society of Mechanical Engineers and the current 
Associate Editor of their Journal of Engineering for Gas 
Turbines and Power.
    Dr. Brun, we welcome you and look forward to your 
testimony.
    Chairman Weber. Thank you, Mr. Chairman.
    Our next witness is Ms. Shannon Angielski, the Executive 
Director of the Carbon Utilization Research Council, CERC. 
Prior to her current employment, Ms. Angielski served as the 
Associate Director--do we pronounce that CERC, C-E-R-C? Okay. 
She is a member of the National Coal Council the American 
League of Lobbyists, and the Environmental Law Institute and 
serves on the board of the Washington Coal Club.
    She earned a bachelor of art in political science and 
international affairs from the University of New Hampshire and 
a master of science in environmental and public policy from 
Johns Hopkins University. Welcome.
    Our final witness today is Mr. Jason Begger, the Executive 
Director of the Wyoming Infrastructure Authority. Mr. Begger, I 
understand your wife is very pregnant and due just almost any 
time. We appreciate you choosing to be here. I guess you prove 
that beggars can be choosers, so we'll see if she still lets 
you back in in case that baby starts early, so we appreciate--
prayers and blessings for that young one's arrival.
    Prior to this, Mr. Begger worked for two members of 
Montana's congressional delegation focusing on Bureau of 
Reclamation water projects and Department of Energy Office of 
Fossil Energy funding. He went on to serve as the Vice 
President of the Petroleum Association of Wyoming and then 
Manager of Government Affairs for Cloud Peak Energy.
    Mr. Begger holds a bachelor of art in history from Montana 
State University Billings and a master of business 
administration from the University of Denver.
    Again, welcome this morning. We hope you the best, you and 
your wife the best so--I now recognize Dr. Aines for five 
minutes to present his testimony.

              TESTIMONY OF ROGER DR. ROGER AINES,

                       SENIOR SCIENTIST,

            ATMOSPHERIC, EARTH AND ENERGY DIVISION,

             LAWRENCE LIVERMORE NATIONAL LABORATORY

    Dr. Aines. I've submitted my full statement to the 
Committee, which I ask to be made part of the hearing record. 
If I may, I'll now summarize a brief opening statement.
    Thank you, Chairman Smith, Ranking Member Johnson, Chairman 
Weber, Ranking Member Veasey, and Chairman Biggs and Ranking 
Member Bonamici, for this opportunity to share our insights 
into the current status and future of fossil energy and carbon 
capture, utilization, and storage.
    My name is Roger Aines. I'm the Chief Scientist of the 
Energy Program at Lawrence Livermore National Lab. I've worked 
on fossil fuel technology and carbon management for 20 years.
    At Lawrence Livermore Lab we're focused on tomorrow's clean 
energy system. This testimony provides an update on emerging 
fossil energy technologies, including carbon capture, carbon 
storage, carbon utilization, and advanced energy systems, 
finally removing carbon dioxide from the atmosphere. It 
includes an assessment of the current state of CO<INF>2</INF> 
utilization in American industry. This current state 
foreshadows a future in which natural gas and CO<INF>2</INF> 
become feedstocks for valuable products, just as we've noted 
many times in the opening statements, creating an economic 
opportunity for all regions of the United States using our 
abundant resources and new technology.
    The mission of the Department of Energy's national 
laboratories is to advance science and technology that 
addresses issues of today to anticipate pending national and 
global challenges and help provide solutions to them in close 
partnership with companies that can bring those solutions to 
the market. The need for efficient fossil fuel technologies 
that can provide an engine for enhanced U.S. competitiveness 
has led to DOE research and analysis conducted at Lawrence 
Livermore Lab, as well as other national labs.
    Today, technology is rapidly transforming fossil energy, 
but despite enormous progress in carbon capture, carbon dioxide 
is still not being managed in the power and industrial sectors 
because that is still too expensive. However, many businesses 
are eager to turn carbon dioxide into products. Turning a waste 
into a feedstock will help solve the cost problem. This is 
called carbon utilization or I like to call it carbon 
recycling, and it's poised to become a major industry.
    Last month in Livermore, we held a roundtable discussion 
with 20 corporations ranging from Exxon to 3M to Nike, all who 
were interested in how they could improve their products with 
materials made from carbon dioxide. This is a ripe area for 
research with much work going on today at university labs such 
as Stanford and Rice Universities. This is an opportunity for 
new technology to aid multiple industrial and power generation 
actors who want to manage their carbon dioxide. New technology 
like 3-D printing, as Mr. Weber mentioned, will be important to 
that transition.
    Natural gas will also be an important part of the 
transition to what we call the new carbon economy where carbon-
based products that we use every day are increasingly made from 
simple feedstocks like carbon dioxide, natural gas, and 
electricity. The chemical industry will be the first to be 
impacted by the ease of using them to make the fibers and 
plastics that are part of our lives. New industrial centers 
will spring up in places where carbon dioxide, electricity, and 
natural gas are abundant and cheap such as the center of the 
country.
    An important innovation is combining biology with 3-D 
printing. My laboratory works with the National Renewable 
Energy Laboratory to use engineered bacteria that they create, 
and we then 3-D print, along with a binder, to actually make 
the reactor out of the bacteria. Natural gas flows in and in 
our most advanced case lactic acid, a valuable precursor for 
synthetics, flows out. The bugs do all the work.
    These kinds of new technology options will also allow us to 
address the challenge of removing the excess carbon dioxide 
from the atmosphere. A new carbon economy that values carbon 
dioxide as a feedstock and not a waste will help with this 
task. Much new science and technology development will be 
required and is just beginning today.
    The United States is poised to be the leader in the use of 
CO<INF>2</INF> and natural gas for new carbon products, a new 
carbon economy. This will create new economic opportunity and 
improve national security as it makes us more energy self-
sufficient. Development and demonstration of innovative fossil 
technologies will be the key to that process. Because energy 
and the necessary feedstocks--carbon dioxide and natural gas--
are abundant in the central United States, we anticipate that 
new industries will thrive there.
    Both basic research and development and transfer of that 
research to corporate users will be important accelerators for 
the new carbon economy. That research and development done by 
national laboratories strives to bring that vision to fruition.
    Thank you very much.
    [The prepared statement of Dr. Aines follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Chairman Weber. Thank you, Dr. Aines.
    Dr. Brun, you're recognized for five minutes.

            TESTIMONY OF KLAUS BRUN DR. KLAUS BRUN,

              PROGRAM DIRECTOR, MACHINERY PROGRAM,

           FLUIDS & MACHINERY ENGINEERING DEPARTMENT,

                  SOUTHWEST RESEARCH INSTITUTE

    Dr. Brun. Thank you. Good morning, Chairman Smith, Ranking 
Member Johnson----
    Chairman Weber. You want to turn on your mic there please, 
sir.
    Dr. Brun. Sorry. Good morning, Chairman Smith, Ranking 
Member Johnson, Chairman Weber, Ranking Member Veasey, Chairman 
Biggs, and Ranking Member Bonamici. My name is Klaus Brun, and 
I'm the Machinery Program Director at Southwest Research 
Institute in San Antonio, Texas. I'm honored to address you 
today on behalf of Southwest Research Institute.
    Southwest Research Institute, headquartered in San Antonio, 
Texas, is one of the oldest and largest independent not-for-
profit applied research and development organizations in the 
United States. For the last 70 years, our mission has been to 
work in the public's best interest and toward betterment of 
mankind. Southwest Research Institute currently executes 
approximately $550 million in contract R&D per year and employs 
about 2,600 staff members in Texas and throughout the United 
States.
    Cheap and reliable electricity is the cornerstone of our 
economy. The supercritical carbon dioxide or SCO<INF>2</INF> 
power cycle has been a major collaborative development effort 
between industry, government, and research institutes to make 
electricity cheaper, more reliable, and also cleaner. For the 
last 250 years, a majority of fossil fuel power plants have 
been using steam and air, but technology development never 
stands still and we must pursue the next improvement in power 
plants.
    The SCO<INF>2</INF> power cycle is not a new energy source. 
It is a technology that incrementally but significantly allows 
us to make better use of energy from conventional fossil fuels 
and some non-fossil energy sources. SCO<INF>2</INF> power 
cycles replace steam or air of a conventional power plant with 
carbon dioxide at very high pressures and high temperatures. 
Carbon dioxide is a common gas that is abundantly available, 
nontoxic, and easily handled.
    Due to the high density and high heat capacity and low 
viscosity of SCO<INF>2</INF>, plant efficiency gains of three 
to five percent are easily realized versus conventional steam 
plants. In industrial waste recovery, nuclear, and 
concentrating solar power, plant efficiency improvements of 10 
to 15 percent over steam are possible. Waste heat recovery from 
thousands of currently underutilized energy streams in industry 
and oil and gas becomes technically feasible and commercially 
viable.
    SCO<INF>2</INF> plants are about five to ten times smaller 
than conventional plants and do not require water. That 
drastically reduces plant capital costs, reduces footprint 
requirements, improves plant grid response, and allows for 
sitings throughout the United States.
    Finally, SCO<INF>2</INF> technology provides a clear 
development path toward oxy-combustion, which is a less-
expensive, higher-efficiency, and completely carbon-free 
emission fossil fuel power plant technology.
    So why now? The thermodynamic advantages of SCO<INF>2</INF> 
power cycles have been known since the early 1950s, but at the 
time, the manufacturing technology, the materials, and the 
design tools did not exist to produce SCO<INF>2</INF> power 
cycles. Using advanced additive manufacturing, high-temperature 
and high-strength superalloys, and state-of-the-art 
computational engineering tools, all technologies have only 
recently become available. We can now build the complex 
microchannel heat exchangers and ultra-high-density energy 
compressors and expanders that are needed for SCO<INF>2</INF> 
power cycles. These technologies are advancing at a very rapid 
pace, and we expect significant further benefits and efficiency 
improvements to power plants in the near future.
    SCO<INF>2</INF> power cycles are on the verge of 
commercialization, and the United States is clearly the leader 
in this technology. A mix of nearly 120 government and industry 
projects with approximately equal R&D funding of about $500 
million from government and $500 million from industry has 
allowed moving technology from concept stage to functioning 
plants over a short period of less than eight years. Several 
U.S. Department of Energy offices and labs, including NETL 
NREL, EERE, ARPA-E, Sandia, Oak Ridge, have all constructively 
collaborated in this major crosscutting effort.
    We are now working on an SCO<INF>2</INF> pilot research 
facility called the Supercritical Transformational Electric 
Power or STEP program that is designed to help industry address 
precompetitive development problems and demonstrate key cycle 
components. STEP is a $150 million DOE project led by Gas 
Technology Institute, Southwest Research Institute, and General 
Electric that aims to demonstrate 10 megawatt supercritical 
CO<INF>2</INF> power plants. The STEP facility will be located 
at Southwest Research Institute in Texas and is scheduled to be 
operational by 2020.
    The STEP program and the many other industry- and 
government-funded SCO<INF>2</INF> R&D projects benefit the 
United States economy through the development of better power 
plants for cheaper, more reliable, and cleaner electricity for 
U.S. consumers. In my opinion, the SCO<INF>2</INF> power cycle 
collaboration and crosscutting initiatives between government, 
industry,, institute national labs, and academia is currently 
one of the most successful cooperative R&D programs in the 
world. Continued participation by DOE and other government 
agencies in these efforts will result in major benefits to the 
U.S. power industry, as well as U.S. energy technology 
leadership.
    I sincerely want to thank the U.S. Government, its 
agencies, and its employees who continue to passionately 
contribute to this very important work. I'm honored to have 
been invited to talk about this exciting technology to the 
Congressional Subcommittees on Energy and the Environment. 
Rarely does a new technology emerge that is capable of offering 
so many solutions. Thank you very much, and I look forward to 
your questions.
    [The prepared statement of Dr. Brun follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Chairman Weber. Thank you, Dr. Brun.
    Ms. Angielski, you're now recognized for five minutes.

              TESTIMONY OF MS. SHANNON ANGIELSKI,

                      EXECUTIVE DIRECTOR,

              CARBON UTILIZATION RESEARCH COUNCIL

    Ms. Angielski. Thank you, Mr. Chairman, and to the Members 
of both the Energy and Environment Subcommittees and to those 
Committee Members that are here today for the invitation to 
testify and discuss this topic with you.
    CERC is an industry coalition that is focused on technology 
solutions for the responsible use of our U.S. fossil energy 
resources to support our Nation's need for secure, reliable, 
and affordable electricity through a balanced portfolio.
    CERC serves as an industry voice to identify technology 
pathways that will enable our Nation to continue to enjoy the 
benefits of our abundant and low-cost fossil fuels in a manner 
that is both compatible with societal energy needs and 
environmental goals and objectives. Members of CERC work 
together to advance a common set of technology objectives that 
can be met through public and private-sector collaboration 
designed to expand technology choices for private-sector 
commercialization.
    I want to recognize that the United States has already made 
significant strides in the development of advanced fossil 
energy resource technologies to improve the utilization of 
these resources. Similar to how a car, a new car today, can 
travel further on a single gallon of gasoline than one that was 
built back in the 1980s, the most advanced coal units operating 
today are 25 percent more efficient than the previous 
generation of coal units, and this is a direct result of the 
public-private-sector collaboration, which many of my members 
were involved with.
    As already recognized in many of the opening statements, 
consumption of fossil fuels is on the rise both domestically 
and internationally, and this trend is projected to continue 
well into the future. There's growing international consensus 
that technologies are needed to further reduce the carbon 
footprint from the use of fossil fuels. As a result, more 
recent efforts have focused on technologies to reduce carbon 
dioxide emissions.
    There is a first-of-a-kind carbon-capture project 
successfully operating on a coal-fired power plant in the 
United States today that is selling its carbon dioxide in a 
nearby oil field. Many of you from Texas may know this project, 
the Petra Nova project. This innovative project relied on 
federal financial support to launch.
    And while research is advancing that will result in 
improved technologies, carbon capture is not yet economic for 
widespread application in the power sector, and further 
technology innovation is needed.
    Later this month, CERC and the Electric Power Research 
Institute will release the 2018 Advanced Fossil Energy 
Technology Roadmap that, if implemented, projects new 
technologies can be available in the next decade, by 2035 time 
frame, that generate electricity from fossil fuels with 
significantly reduced carbon dioxide emissions and importantly 
can be cost-competitive with other sources of electricity 
generation.
    By way of background, EPRI conducts research development 
and demonstration projects for the benefit of the public in the 
United States and internationally. As an independent, nonprofit 
organization for public interest energy and environmental 
research, they focus on electricity generation, delivery, and 
use in collaboration with the electricity sector, its 
stakeholders, and others to enhance the quality of life by 
making electric power safe, reliable, affordable, and 
environmentally responsible.
    EPRI does not advocate or aim to influence policy or 
regulation.
    This will be the fifth roadmap that CERC and EPRI have 
published together since 2003 and reflects the technology 
development needs that can support an evolving U.S. power 
sector that's impacted by several emerging trends driving 
innovation and investment decisions for new generation. Some of 
these trends include increased and low cost domestic supplies 
of natural gas, slow and in some cases declining low growth in 
electricity demand, as well as the need for generation to 
rapidly adjust to cycling load demands with increased 
intermittent renewables on the grid.
    There are several technologies identified in the roadmap 
that address these trends yet enable a transformation in the 
way we use our fossil fuel resources. These include novel power 
cycles like those already discussed, the supercritical CO<INF>2</INF> 
cycles or key processes in those cycles that are designed to 
facilitate the capture of carbon dioxide at a lower energy 
penalty and cost than conventional methods. These processes are 
inherently more efficient, resulting in fewer emissions of both 
carbon dioxide and criteria emissions, less water use, and 
require less--fewer fossil fuels to produce electricity.
    The roadmap also outlines advances in carbon-capture 
technologies designed to lower costs and the development and 
testing of these technologies at test center such as the 
Wyoming Integrated Test Center and the National Carbon Capture 
Center in Alabama.
    The roadmap also identifies research on breakthrough 
technologies to ensure out-of-the-box thinking where 
fundamentally new approaches for using fossil fuels are 
developed and includes typical programs like those discussed by 
Dr. Aines. Many of the technologies identified in the roadmap 
are ready for pilot testing today and a few are preparing for 
commercial-scale demonstration.
    I also want to discuss a companion analysis conducted by 
CERC and ClearPath Foundation with modeling provided by NERA 
Economic Consulting and Advanced Resources International that 
shows that there are significant economic benefits to the 
United States of the technology development outlined in the 
roadmap is undertaken under a wide range of scenarios.
    Our analysis projects up to 87 gigawatts of market-driven 
carbon-capture deployment paired with enhanced oil recovery by 
2040, resulting in significant increase in domestic oil 
production and lower cost retail electricity rates, all of 
which contain--contribute to substantial increases in annual 
GDP and are projected to result in over 800,000 new jobs 
through 2040. These macroeconomic benefits are described in 
more detail in my written testimony in a report summarizing the 
study that will also be released next week.
    While both CERC and EPRI developed the roadmap, I just want 
to make sure it's understood I'm speaking only on behalf of 
CERC today, and we're very pleased to support the House 
Science, Space, and Technology Committee efforts to explore 
next-generation fossil power technologies and to discuss 
solutions that will enable our Nation to continue to 
responsibly benefit from the utilization of our fossil energy 
resources.
    Thank you for the opportunity to provide you this 
testimony.
    [The prepared statement of Ms. Angielski follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    
    Chairman Weber. Thank you, ma'am.
    Mr. Begger, you're recognized for five minutes.

                 TESTIMONY OF MR. JASON BEGGER,

                      EXECUTIVE DIRECTOR,

                WYOMING INFRASTRUCTURE AUTHORITY

    Mr. Begger. All right. Mr. Chairman, Members of the 
Subcommittee, I appreciate the opportunity to speak to you 
today about our carbon technology efforts in Wyoming. My name's 
Jason Begger, and I'm the Executive Director of the Wyoming 
Infrastructure Authority. The WIA is a state instrumentality 
tasked with promoting and assisting the development of energy 
infrastructure.
    Currently, our largest project is the Wyoming Integrated 
Test Center, the ITC, which is a private-public partnership 
between the State of Wyoming, Basin Electric Power Cooperative, 
Tri-State Generation and Transmission Association, and the 
National Rural Electric Cooperatives Association. We have also 
received various in-kind contributions from Black Hills Energy 
and Rocky Mountain Power. I cannot stress enough the importance 
of this private-sector partnership because we shouldn't be 
focusing on projects and technologies that industry won't adopt 
and commercialize.
    While we believe there's an important role for the federal 
government to play in advancing technology and we would welcome 
a partnership, not one cent of federal dollars has been 
utilized at this facility.
    The ITC is a post-combustion flue-gas research facility 
located at Basin Electric's Dry Fork power station near 
Gillette, Wyoming. It is the largest facility of its kind in 
the United States, delivering up to 18-megawatt-equivalent 
worth of scrubbed flue gas to researchers testing CCUS 
technologies. The power plant will provide flue gas to five 
small research bays, each capable of hosting tests up to about 
.4 megawatt equivalent and a large test bay that can host two 
demonstration projects with a cumulative total of 18 megawatts.
    Last month, we formalized a two-year partnership agreement 
with the National Carbon Capture Center in Alabama, which 
manages much of the Department of Energy's carbon-capture 
efforts. In Wyoming, we don't want to duplicate the work 
already being done; we want to complement the other test 
centers by providing a place to scale up current research. Our 
goal is to test technologies to both capture and manage the 
carbon.
    One of the most exciting partnerships we've developed is 
with the XPRIZE Foundation. One of the best-known XPRIZE 
competitions was the Ansari XPRIZE, which awarded the first 
team to fly three people to space and back twice within 14 
days. One $10 million prize spurred 27 teams to invest over 
$100 million in technology development.
    Eventually, Richard Branson licensed the technology to 
create Virgin Galactic, and today, the private space travel 
industry is worth $2 billion only 22 years after the idea was 
created in the mid-'90s. The NRG COSIA Carbon XPRIZE will award 
$20 million in prizes to teams that are best able to convert 
CO<INF>2</INF> into other valuable products.
    Currently, there are ten teams from six countries working 
in the final round to create things such as carbon nanotubes, 
methanol, building materials, fish food, and plastics. The five 
finalists testing at the ITC are working to Converse CO<INF>2</INF> 
from a coal-fired power plant, and there are five teams testing 
their technologies at a natural gas facility in Alberta, 
Canada. In April, Wyoming and the Japan Coal Energy Center 
announced a multiyear project, which will test Kawasaki Heavy 
Industries' solid sorbent carbon-capture technology.
    Stable, predictable, and adequate funding is necessary to 
commercialize these technologies. H.R. 5745 is a great start, 
but Congress may need to look at establishing other programs to 
scale up the most promising technologies. Finding funding to 
support a new program is always a challenge. However, the coal 
mined in the United States provides an opportunity. The 
majority of the coal mined in the United States is owned by the 
Federal Government and leased to companies. These companies pay 
a variety of taxes, including federal mineral royalties, bonus 
bids, abandoned mine lands fees, and gross proceeds taxes. 
Every year, the mineral royalties and bonus bids bring in about 
$500 million. With a ten-year authorization, half of that 
funding could provide about $2.5 billion to fund carbon 
management research.
    Technology is apolitical, and the United States can make 
its best and greatest impact by investing in technology 
development that could be utilized around the world. There is 
considerable debate over the future of coal within the United 
States. However, every credible energy analysis from the U.N. 
Intergovernmental Panel on Climate Change to DOE acknowledges 
that large amounts of coal will be used globally for the 
foreseeable future. Technology is the best way to ensure these 
countries have access to power, yet can meet environmental 
goals.
    I appreciate the opportunity to speak with you today and 
will gladly answer any questions. Thank you.
    [The prepared statement of Mr. Begger follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
  
    
    Chairman Weber. Thank you, sir. I now recognize myself for 
five minutes.
    Dr. Aines, in your prepared testimony, you highlight the 
need for national labs and the private sector to work closely 
together to develop carbon capture, use, and storage 
technology. And just as an aside, in Port Arthur, Texas, in my 
district we have probably the largest carbon-capture 
sequestration unit in the country that I believe was funded by 
the EERE open--went to the groundbreaking or the ribbon-cutting 
probably three or four years ago I guess it was.
    However, I want to point out it's the ultimate 
responsibility of industry to commercially deploy these 
technologies. So, in your opinion, when is the appropriate time 
for the fossil energy industry to take innovations from the lab 
to commercialization? And before you answer, do you have like a 
pipeline of information and research? You're talking with 
industry consistently so that you're able to keep them up-to-
date and then sufficiently or successfully hand that off to 
them? How do you do that?
    Dr. Aines. We do it best when we work in partnership early 
on, which is why I mentioned this roundtable that we had where 
we brought industry in to ask them what they wanted to do, and 
we will be partnering with several of those companies to 
develop technologies.
    The concept of developing and throwing it over the fence, 
as we call it, does not work well. We need to understand 
exactly what industry needs and pass it off at the time that 
they're ready to take it.
    Chairman Weber. Right, and that's why I say not--you know, 
that's why I say a pipeline of information. You want to keep 
them involved and keep them working. And I guess you work with 
some of the associations around that also are very attentive to 
this process, and they would be able to keep, you know, their 
members involved so that when we do get to that where it's 
economically feasible, viable, then you can hand that off. Do 
you have those relationships established?
    Dr. Aines. Yes, sir. We try to develop those, but I have to 
say that is a major challenge to maintain those relationships 
because we need things to work on together to actually have a 
relationship.
    Chairman Weber. No, I got you. What tools do the national 
labs and the nonprofit research institutions have in your 
toolkit that make you all better-suited to conduct that early-
stage research in support of the innovative technology? How 
would you describe that toolbox?
    Dr. Aines. We have a broad base of science and technology 
that we can use to look at the whole system. Rather than being 
an advocate for one particular technology, we like to say 
what's the problem that needs to be solved and then, you know, 
somebody of the 7,000 scientists that work at my laboratory is 
likely to have a solution, and if not, then one of the 17 other 
national laboratories. So it's important not to be just out 
there pushing a solution because we have one but to work on the 
solutions that are required.
    Chairman Weber. Right. And one of those tools we would 
hope--going back to my previous question--would be that you 
have robust relationships with industry, maintain those 
relationships, and keep them interested, so that's a good 
thing.
    Lawrence Livermore National Laboratory, LLNL, what do you 
all call it?
    Dr. Aines. We call it Lawrence Livermore.
    Chairman Weber. Maybe we should call it L's NL, get you a 
new mantra. All's well and L's NL and so a shorter name would 
be good.
    But you all have supercomputers and tools like carbon-
capture simulation, innovative toolset, which provides end-
users in the energy industry with computational modeling tools 
for the development of carbon-capture technologies. So how does 
L's NL as I call it make sure that academic or energy sector 
partners can access this research infrastructure and the 
technical systems the lab can provide? How do you do that, and 
how often do they access it?
    Dr. Aines. We have a mechanism called the CRADA, 
Cooperative Research and Development Agreement, which we use 
when working with industry, and we do those commonly. They are 
a little complicated to put together sometimes.
    The second thing that we do that is a new program that has 
been very effective is called HPC4 Energy. That stands for 
High-Performance Computing for Energy, and that's a program 
where the Department of Energy pays the staff at one of the 
national labs that has expertise to work with an industry 
problem. The industry competes to get their problems worked on, 
and then we partner to bring the correct expertise to that 
industry. And that's been an extremely effective way to bring 
our high-performance computing expertise to the use of 
industry.
    Chairman Weber. Do you find industry from all across the 
country or is it more sectionalized if you will?
    Dr. Aines. Oh, all across the country. It's a very 
competitive program.
    Chairman Weber. Does the fact that you're a nuclear weapons 
lab. Does that hamper or help in that program?
    Dr. Aines. I would say it's not a factor.
    Chairman Weber. Not a factor? Okay. Well, I appreciate 
that. I'm going to yield back, and the Chairman recognizes Mr. 
Mark Veasey.
    Mr. Veasey. Mr. Chairman, thank you very much.
    I wanted to ask Ms. Angielski a couple questions. In your 
testimony, you describe the challenges of attracting private-
sector investment, not only for so-called early-stage 
technology development activities but for each stage of the 
path toward commercialization. I was wondering if you could 
discuss that in a little bit more detail, and also if you could 
just kind of provide a typical time frame from concept to 
commercialization and what levels of investment and risk are 
private companies willing to take so they can deploy these sort 
of first-of-their-kind technologies without any kind of federal 
support?
    Ms. Angielski. Certainly. The early-stage research is at a 
point in time where technical risk is low, as well as cost 
risk. And so basic research can typically attract both public-
sector and private-sector financing, despite what might be long 
lead times, as you just outlined, for return on that 
investment. Typically what we see for generation technology, 
which are very large capital-intensive baseload generation 
technologies, from concept to commercialization it's typically 
taken anywhere from 15 to 20 years to actually get a 
commercialized technology from concept to commercialization, so 
it's a very long lead time to actually look at what all the 
scales of development are needed to actually have that 
technology be able to be operational in commercial practice and 
then adopted in commercial practice.
    So when we look at going from that fundamental basic 
research, the next step is to scale up to testing those 
technologies under what we call real operating conditions, and 
so that requires more investment, you're building equipment and 
you need to actually spend time operating that facility under 
those conditions that you can get the operational test data 
needed to actually scale up and design for a commercial 
project.
    And so as we move through those stages of development and 
you scale up, it's going to be significantly larger investment 
in cost, but yet again, your timeline to that return on 
investment is long enough that attracting both internal 
financing from companies, as well as private-sector financing 
can be somewhat difficult to justify, particularly if there 
isn't a market pool for the technology at that time.
    So that's essentially, you know, from just a timeline 
perspective but also part of the challenge in attracting that 
private or internal financing. It can be difficult to achieve, 
which is essential for the federal support to get those 
technologies actually tested and demonstrated and across the 
finish line.
    Mr. Veasey. Well, thank you very much.
    I also wanted to ask you about the legislation that I'm 
working on that I mentioned in my opening remarks, H.R. 5745, a 
bipartisan Fossil Energy Research and Development Act of 2018. 
You know, it helps bridge the gaps between what the private 
sector is willing and able to do on its own and what we really 
need to do to commercialize these technologies at a sufficient 
pace to meet our national and economic goals. Could you talk a 
little bit about that?
    Ms. Angielski. So I will say that H.R. 5475--or 5745, I'm 
sorry, is very consistent with the technology development 
programs that we have identified in the CERC-EPRI roadmap, 
which is why we were very pleased to support the legislation. 
We--the legislation would authorize both basic research, as 
well as pilot-scale development testing and commercial-scale 
demonstrations, which we see as critical and necessary for 
advancing these technologies up to commercialization.
    It would authorize carbon-capture projects and accelerate 
those projects with the funding that's provided through the 
development or authorization of test centers like those 
described by Jason both at a small pilot, as well as Jason 
identified in his testimony, at a pilot scale, which is 
necessary before jumping to commercial-scale operation.
    The legislation also authorizes all of the technology 
development pathways that we have identified in the roadmap for 
new power systems, both transformational, as well as other 
technology-development efforts like high-efficiency materials, 
for example, that will be needed in order to support those new 
processes in the future.
    And then in order to fully address the reduction of carbon 
emissions, the legislation also authorizes carbon storage 
outside of utilizing CO<INF>2</INF> and enhanced oil recovery 
or converting CO<INF>2</INF> for carbon dioxide, that that will 
be really important in the future under any scenario in which 
we find ourselves in a carbon-constrained future, and so that's 
something we've outlined in our roadmap as well.
    Mr. Veasey. Thank you, Mr. Chairman. I'm out of time. I 
yield back.
    Chairman Weber. I thank the gentleman. Chairman Biggs, 
you're recognized for five minutes.
    Mr. Biggs. Thanks, Mr. Chairman.
    Again, thanks to all of you for being here today. And Dr. 
Brun, can you please explain some of the environmental benefits 
of super-clean CO<INF>2</INF> power cycles?
    Dr. Brun. Basically, what you're doing here is you're 
providing a power cycle that's more efficient, and that's the 
first generation of supercritical CO<INF>2</INF> plants. So 
just by a three to five sometimes seven percent efficiency of a 
power plant, you're really reducing all criteria emissions by 
that percentage.
    The next generation of supercritical CO<INF>2</INF> plants, 
which is really what we're looking for as the Holy Grail of 
supercritical CO<INF>2</INF> is oxy-fuel combustion, and that 
leads to a potential for a completely carbon-emissions-free 
powerplant because what you end up doing is you are getting 100 
percent concentrated stream of CO<INF>2</INF> at the end that's 
already pressurized, and so it's ready for sequestration.
    So the short-term goal is really an incremental improvement 
of efficiency, and obviously reduced power cost and cleaner 
power. The long-term goal is completely carbon-free power 
plants.
    Mr. Biggs. This leads me to wonder: You must see a path to 
that. I mean, obviously, you don't know all the technologies 
and answers, but you do see a path to the Holy Grail I guess?
    Dr. Brun. Yes, we have a development roadmap, and that's 
Correlated between the different industries. And it's really 
been a very, very positive collaborative industry, academia and 
government process, over the last eight years. We really moved 
the technology forward over the last ten years. Not only on the 
power-generation side, it takes decades to move any technology 
forward, and we've really moved supercritical CO<INF>2</INF> in 
the last eight years from concept to power plant technologies.
    So we similarly have a roadmap to get ourselves to oxy-fuel 
combustion, which is that next level of supercritical CO<INF>2</INF> 
plant. I would say we're about five to ten years away from 
that, and there needs to be continued aggressive funding both 
from industry and from government to achieve that. But right 
now, I think there's a clear path towards that.
    Mr. Biggs. Okay. So--and when you talked about--in your 
testimony today, you said we're on the verge of commercial 
viability. Where in that path do you see commercial viability 
coming in if we're, what, five to ten years away from oxy-fuel 
combustion?
    Dr. Brun. Right. It depends on what type of oxy fuel 
supercritical CO<INF>2</INF> plant you're looking at. So 
supercritical CO<INF>2</INF> plants at the lower temperatures, 
for example, for waste heat recovery, those are now 
commercially available. They have been. You can now go to 
General Electric or you can go to other companies and say sell 
me one, and they will sell you one. That was not the case three 
years ago. That was certainly not the case eight years ago.
    We're trying to get to that same level on other 
technologies like, for example, concentrating solar power, 
higher temperature supercritical CO<INF>2</INF>, so more for 
fossil-type applications may be in the next three years. Oxy-
fuel combustion is probably going to take five years. So some 
is already commercially available and some is not, and so there 
is a development path that we need to follow really toward 
higher temperatures.
    Mr. Biggs. And so what regions of the country or what areas 
do you see benefiting the most from this technology?
    Dr. Brun. There's really no limits there. This is widely 
applicable. The nice thing about supercritical CO<INF>2</INF> 
is that it's site-able anywhere, and it doesn't have any water 
requirements, and that makes it really site-able in places 
where you have to have access to water.
    Mr. Biggs. Like Arizona I'm thinking.
    Dr. Brun. Arizona is fine.
    Mr. Biggs. Very good. Thank you. With that, I yield back, 
Mr. Chairman.
    Dr. Brun. Thank you.
    Chairman Weber. Thank you, sir. The gentleman from 
California is recognized for five minutes.
    Mr. McNerney. Well, I thank the Chairman.
    Say, I thank the witnesses. I enjoyed your testimony. I 
especially thank Mr. Aines and Christie Schomer from Livermore 
Labs. I've been there many times. It's right inside of my 
district. I appreciate the work that you're doing over there.
    I've often implored my Republican colleagues to embrace 
carbon sequestration, especially if their districts mine carbon 
or burn coal or burn coal. That might help them in the long 
run. Is there anyone on the panel that disagrees with that 
sentiment?
    I see headshaking that they agree with my sentiment. Thank 
you.
    Mr. Aines, you spoke about the need to transfer within the 
DOD about carbon capture from coal-fired to gas-fired systems, 
so how do you suggest that we accomplish that?
    Dr. Aines. From the DOE.
    Mr. McNerney. What did I say, DOD?
    Dr. Aines. Yes.
    Mr. McNerney. Thank you for the correction.
    Dr. Aines. The most important thing is to engage 
partnerships like what's going on in Wyoming so that the 
researchers get to work together with industry.
    Mr. McNerney. Well, that was simple. So I also appreciate 
what you said in your written testimony about Mt. Poso 
Generating Facility in Bakersfield. It's near an oilfield 
that's well-suited to CO<INF>2</INF> storage. Can you talk more 
about the policy considerations such as the 45Q credit and 
California's low carbon fuel standard for incentivizing that 
development?
    Dr. Aines. The issue with carbon capture today is that no 
one can afford to do it, and so we need incentives to help 
these first movers get the ability to have a business that's 
going to make money doing it, just as we did with wind and 
solar when we first started. Mt. Poso is going to take 
advantage of two of those, the 45Q tax credit, and within 
California if you're making a transportation fuel, the low 
carbon fuel standard as of just last week was trading at $185 a 
ton of CO<INF>2</INF>. So when you combine those two things 
together, $220, $230 a ton is something that people are 
absolutely looking at to make real money. And we expect that 
places like Mt. Poso and places like the ethanol refineries 
within the central part of the country are going to jump on 
these opportunities to make money while controlling carbon 
dioxide.
    Mr. McNerney. So do you think that carbon capture and 
sequestration can be viable without a price on carbon in the 
long run in the Nation? And also, Ms. Angielski, could answer 
that question as well.
    Dr. Aines. I think that it's a difficult task that is going 
to require prices like those mechanisms that I just discussed. 
I don't think we're ever going to make enough money just from 
selling the CO<INF>2</INF> to do all the carbon management that 
we need to do.
    Mr. McNerney. Thank you.
    Ms. Angielski. I am not sure to--that from CERC's 
perspective commenting on whether regulation is necessary or 
not is not a position that we take. I think what we take is the 
position that Dr. Aines just described, which is improved 
technology will be needed, particularly for deployment of 
carbon capture in the power sector.
    It, right now, is the differential between the cost of 
capturing the CO<INF>2</INF>, which is where the 45Q credit 
comes into place to help reduce those costs and actually 
incentivize the deployment of these technologies in the power 
sector, as well as in other industrial applications like the 
ethanol industry, as you just described. However, right now, 
those credits are not enough to offset the production of 
CO<INF>2</INF> in the power sector, so that's where we believe 
that improved technologies through the public-private 
partnerships with the Department of Energy will help to reduce 
the cost of applying those technologies in the future. And that 
will be needed in addition to some of these incentives like 45Q 
to overall deploy the technologies in the market.
    Mr. McNerney. Well, thank you. I'm really interested in the 
technology, this high-pressure carbon technology, super 
pressure. Can you describe a little bit, Dr. Brun, the--where 
that fits in with the Carnot cycle? Where does the Allam cycle 
fit in with the Carnot cycle?
    Dr. Brun. If you're talking the Allam cycle, I mean--
    Mr. McNerney. We're talking about the Allam cycle with----
    Dr. Brun. Yes, that's one of the--there's a host of 
supercritical CO<INF>2</INF> cycles--supercritical CO<INF>2</INF> 
really just replaces either steam or water in the cycle, so 
there is a host of cycle--they're all called Brayton cycle. The 
Carnot cycle is kind of like the idealized cycle.
    Fundamentally, the supercritical CO<INF>2</INF> cycles, the 
host of cycles, one of them being the Allam cycle--and that's a 
very promising cycle, by the way--they all end up benefiting 
the efficiency of the cycle and the power output of the cycle 
because supercritical CO<INF>2</INF> is really carbon dioxide 
at high pressure and high temperature--is a much better 
thermodynamic fluid than steam or air. There's nothing wrong 
with steam or air. We've been using it for 250 years; it's 
good. It's abundantly available obviously, but carbon dioxide 
is just, from a thermodynamic perspective, a better fuel.
    Mr. McNerney. With the Chairman's indulgence, I mean, 
you're going to have carbon dioxide left over eventually. I 
mean, you're going to have to do something with it.
    Dr. Brun. Right.
    Mr. McNerney. And as it remain pressured after the cycle, 
you can still----
    Dr. Brun. You can utilize it.
    Mr. McNerney. You can use it somehow?
    Dr. Brun. Yes, the beauty of it is that you don't have to 
do any flue gas or pre-combustion cleanup, right? All this 
where you need to do something to get the carbon dioxide out of 
the flue gas, out of your exhaust, you don't have to do that 
because what you're getting out is 100 percent CO<INF>2</INF> 
at pressure already, so you don't have to compress it either so 
you don't have that compression penalties. So you're ready to 
take that CO<INF>2</INF> and do whatever you want to do with 
it, sequester it or use it for advanced other products.
    That's the nice thing about that cycle whereas in other air 
cycles you have to take the CO<INF>2</INF> and the stack 
emissions out of the air at a low percentage, which is 
expensive. In the CO<INF>2</INF> cycle and the oxy-fuel cycles, 
you don't have to worry about that. You get pure CO<INF>2</INF> 
already ready for sequestration.
    Mr. McNerney. With the Chairman's gratitude, I yield back.
    Chairman Weber. Absolutely. I think in that instance, Dr. 
Brun--I don't want to continue this because Mr. Rohrabacher is 
straining at the halter over there--it's the infrastructure to 
get that pure CO<INF>2</INF> to work to where it's needed. Is 
that--isn't that the challenge?
    Dr. Brun. Yes, that's an additional challenge. Obviously, 
you have to do something with the CO<INF>2</INF> once you have 
it, right?
    Chairman Weber. Yes.
    Dr. Brun. And so you're still going to need some pipelines. 
You're going to have to inject it somewhere, into salt domes. 
All that is additional cost. There's obviously been quite a bit 
of work in those areas, but, yes, there is----
    Chairman Weber. Thank you. And I thank the gentleman from 
California. That was a great exchange.
    The other gentleman from California, Mr. Rohrabacher, is 
recognized.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman. And 
it's been a very interesting discussion. And, I mean, no, I'm 
not an engineer, so some of the things I'm still trying to come 
to grips with of how we are accomplishing the various output 
based on the input and what's in between there. I'm not really 
sure about some of the engineering.
    But the basic motive that we have supposedly or the basic 
motive behind much of what's going on about CO<INF>2</INF> is 
based on the theory that CO<INF>2</INF> is a major factor in 
causing our planet to get hotter and hotter. I don't happen to 
agree with that. I've talked to a lot of scientists who believe 
that premise is not correct, that looking back at the ice cores 
from ancient times to now actually has the planet getting 
hotter, and then there's more CO<INF>2</INF> being created.
    I'm not going to ask you what your beliefs are on CO<INF>2</INF> 
making the planet hotter. Let's just accept that today there--
also, the discussion today is based on there's CO<INF>2</INF> 
that's being produced. Can we do something that is beneficial 
to mankind even if you do not believe that CO<INF>2</INF> is 
causing the planet to get hotter? And that discussion I think 
is very important for all of us to make, and we're very happy 
to have you here to help direct that discussion.
    In my own area in Orange County we have a company called 
Newlight Technologies. Are you aware of this company? I'm very 
proud of these young men, who are surfers and went off to 
Princeton and got educated and realized that there was a 
potential for getting something out of the air, straight out of 
the air that would be of value. And they have just opened up 
their first $50 million production site after spending years 
perfecting it.
    And let me just note for the record here its Newlight 
Technologies, and they are taking carbon dioxide and methane 
emissions right out of the air and producing high-quality 
plastic that is actually at a lower cost than the current 
method of producing plastic. And the plastic that they are 
producing has biodegradable properties that make it even more 
important because whales that are eating plastic bags, we know 
that's bad and we don't want fish and other ingestion of 
plastic is actually harmful for the environment.
    These kids are taking that CO<INF>2</INF> out of the air 
and the methane out of the air and producing things that are 
cheaper and better. And so I think that's a formula for 
progress. And so whatever we do, we need to make sure that 
actually there is not just the benefit of keeping the planet 
from warming but instead other benefits that go with that.
    Now, I'd like to talk about that. I'd like to ask about 
whether or not--when we're talking about the Colorado--or the 
Wyoming projects and--that are going on or--we have--well, let 
me talk about the scrubbers first and all the--what you 
presented for us, Dr. Brun, was very complicated. And again, I 
was trying to get a non-engineer to understand this. In the 
end, are you coming up with a product that actually is going to 
be cost-effective, or is this going to be at an enormous cost?
    Dr. Brun. No, all the models are predicting that it's cost-
effective. And what's important here is that this is not done 
in a vacuum. We are working with industry. We're working with 
all the major power players in the United States and companies 
like General Electric and others that are investing 
significantly of their own money, so they're not just taking 
DOE money to develop this technology; they're investing their 
own money. And so they're clearly seeing commercial viability 
in that technology; otherwise, they wouldn't be pursuing it.
    Mr. Rohrabacher. So this would be economically viable in 
and of itself?
    Dr. Brun. That is the aim.
    Mr. Rohrabacher. Okay.
    Dr. Brun. Yes.
    Mr. Rohrabacher. And, Dr. Aines, in your prepared 
statement, you mentioned the potential growth for using carbon 
for manufacturing in industry and both carbon dioxide and 
natural gas will be the main inputs for industry. And when you 
think about natural gas and both carbon dioxide and natural gas 
being used as inputs for this or for a--so why do we need to 
then have tax benefits and R&D funding for all fossil fuels if 
indeed we're just talking about the natural gas and carbon 
dioxide?
    Dr. Aines. I can't answer that question in detail. I look 
to the future, and I see that industry is very interested in 
using natural gas because of the simplicity and the cleanliness 
but mostly the simplicity and its lower cost for them, and so 
that is where the direction that a lot of industrial movers are 
going.
    Mr. Rohrabacher. Well, when it comes to CO<INF>2</INF> 
and--you know, I drove across the country with my family a year 
ago, and one thing that was interesting for my kids was to see 
all of these fields that were covered with plastic and machines 
pumping something into that plastic with the different plants 
like tomatoes, et cetera, and they were--my kids were very 
surprised to find out that they were pumping CO<INF>2</INF> 
into these big coverings of agricultural products. Is--the end-
situation there we're utilizing CO<INF>2</INF> for something 
that's positive. You get more food out of it. Is that--so is 
this not an example--is there more examples like this that we 
could have that would actually--where we're using CO<INF>2</INF> 
that will in a way benefit--like our friends are making plastic 
out of it. Are we going to see more of this? And maybe you have 
some examples specifically of how CO<INF>2</INF> will be used 
to have other uses that are beneficial.
    Dr. Aines. That's a great example, and another example that 
I would point to is the addition of carbon dioxide to cement 
and concrete, which I know of about 20 companies that are 
pursuing this. And the major advantage there is it makes the 
concrete stronger, and so you can use less of it, you can have 
a more efficient structure, and it's a terrific combination of 
having a better product and using the CO<INF>2</INF> that we 
want to keep out of the air.
    Mr. Rohrabacher. So we don't have to really agree on 
whether or not global warming is caused by CO<INF>2</INF> to be 
very interested in this whole concept of science research and 
expanding the use of CO<INF>2</INF> in a positive way.
    Chairman Weber. You don't. You just have to agree and yield 
back.
    Mr. Rohrabacher. Thank you.
    Chairman Weber. Okay. All right. The Chair now recognizes 
the gentleman, Mr. Tonko, for five minutes.
    Mr. Tonko. Thank you, Mr. Chair, and thank you to all of 
our witnesses for being here today.
    This is a critical topic because a modern society needs 
energy, and the only way we are going to meet our energy 
challenges are through investments in research and development. 
We often hear about the need to reduce government spending, and 
while that is certainly important, we cannot lose sight of the 
vital role the government plays in investing in innovation.
    The Federal Government must be an active partner with 
universities, with independent laboratories, and certainly the 
private sector. The only way we are going to meet our energy 
challenges are through investments in research and development. 
Having an R&D portfolio that covers the spectrum from basic 
sciences to technology development, testing and deployment 
greatly augments the work being done by the private sector and 
in our university communities.
    Sustained support of these efforts is essential to lowering 
costs and improving performance of energy technologies. And 
when it comes to a national energy policy, there are so many 
areas that we should be further discussing, including battery 
development, storage, alternative energy, grid investments, 
energy efficiency and innovation, and how we generate and 
transmit and conserve power.
    This committee should be looking at how we can invest so 
that our Nation can have the best options to choose from to 
ensure that we protect our Nation by addressing our national 
security and our public health and our Nation's economy. I 
fully believe that across the field we need to develop 
technologies to reduce our carbon footprint and to increase 
efficiency in all areas, which is why I'm so proud of being a 
supporter of a bill to make gas turbines more efficient.
    Efficiency must be our fuel of choice, especially for 
fossil fuels. The gas turbine R&D bill, which I have worked on 
with Representative David McKinley, would authorize DOE's 
Office of Fossil Energy to carry out a multiyear, multiphase 
R&D program to improve the efficiency of gas turbines used in 
power generation systems and to identify the technologies that 
ultimately will lead to gas turbine combined-cycle efficiency 
of some 67 percent. This includes high-temp materials, improved 
heat transfer capability, manufacturing technology required to 
construct complex parts, advance controls and systems 
integration, among other topics. And expanded government 
investment and research of gas turbine technology will lead to 
more American jobs, increased American global competitiveness, 
and reduce greenhouse gas emissions.
    So for all of our witnesses, how important do you think it 
is that we use our fossil fuels more efficiently if we continue 
to rely in part on them? Anyone?
    Ms. Angielski. I'm happy to answer. I think historically, 
we've seen the benefits from improved efficiency in both gas 
turbines through natural gas combined-cycle systems, as well as 
coal-fired generation. And with every percentage point in 
improvement, we see a significant reduction overall in 
emissions, as well as fewer fossil fuels being needed for that 
same amount of energy output. So it's very, very important.
    Mr. Tonko. Anyone else? Thank you.
    Mr. Begger. Yes. Mr. Chairman, Congressman, I completely 
agree. You know, if you look back at the power plants, you 
know, this generation of power plants have been retiring in the 
last few years that were constructed in the '60s and '70s, you 
had maybe a 30 percent efficiency factor. Today's power plants, 
you look at the Turk facility in Arkansas, which is 
supercritical, it's up over 40 percent. So one thing that if 
the United States wanted to improve efficiencies and emissions 
today is you would find a way to build more of those 
supercritical Turk plants and close down the older plants 
because efficiencies do matter and they do get us there.
    Mr. Tonko. Oh, yes. They address the amount of electrons we 
can save and the dollars we can save, so yes, sir. Dr. Brun?
    Dr. Brun. Yes. I think gas turbine development is a really 
wonderful example of how you have a collaboration between 
academia, government funding, and industry, specifically GE in 
the United States and Westinghouse before, where you've taken a 
technology from after World War II maybe in the 30 percent 
efficiency to now we're talking 67 percent efficiency, which is 
by far the highest efficiency power plant technology that's out 
there. That's higher than anything else, and that's--I mean, 
that's been dramatically--even over the last 20 years we've 
gone from about 55 to about--right now, we're probably at 63, 
64, but we're aiming for that 67 percent. So that research has 
been fantastic, and every percent that you save is one percent 
less CO<INF>2</INF>----
    Mr. Tonko. Right.
    Dr. Brun. --and is one percent less fuel burned, and so 
that's been very effective research, and that's been a great 
collaboration between industry and government and academia.
    Mr. Tonko. Right. It's hard to believe that there are think 
tanks out there that fight this effort to offer these 
challenges, develop these goals, and reduce the pollution, the 
carbon pollution, but they're there and it's a force we have to 
work against.
    So with that, I thank you all for your input and I yield 
back, Mr. Chair.
    Chairman Weber. Thank you, Mr. Tonko.
    And the gentleman from Texas, Dr. Babin, is recognized for 
five minutes.
    Mr. Babin. Yes, sir. Thank you, Mr. Chairman. And I 
appreciate all of you being here today, very, very interesting.
    Mr. Begger, can you please describe the misconceptions that 
many people have of coal and why technological innovation can 
help clear up some of these misconceptions? If you would 
elaborate, please.
    Mr. Begger. Mr. Chairman, Congressman, one of our biggest 
goals--I mean, the reason why Wyoming is involved in this is to 
figure out how can we ensure the long-term viability of a 
natural resource the State has. You know, 1/3 of Wyoming's tax 
revenue is directly dependent upon the coal industry. The 
benefits of coal are pretty evident. It's the reason why the 
country has been using it for years. It's why China is using 
it. Why we see these industrialized nations using more and more 
of coal is it's reliable, it's stable, you can put it on a pile 
somewhere, you don't need a pipeline. It is a very great fuel 
for beginning an energy industry.
    And so I think our challenge now is how can we use that, 
understanding society's drive and demand towards lower carbon 
standards? You know, in the past, you know, nobody talks about 
acid rain anymore. It's because we've developed scrubbers. The 
smog, you know, you'd see those old pictures from Pittsburgh 
and, you know, Detroit 50 years ago. We don't have those sort 
of things anymore because we've developed, you know, baghouses 
and electrostatic precipitators.
    And so Wyoming's approach is let's look at climate change 
as a political--or, excuse me, as an engineering challenge and 
not a political football because industry time and time again 
has shown that, given enough time and enough resources, we can 
engineer a solution----
    Mr. Babin. Absolutely.
    Mr. Begger. --and find that win-win. You know, let's remove 
CO<INF>2</INF> and we can find an economic incentive to do so, 
that's great.
    Mr. Babin. I appreciate that. It's very fascinating. And 
being from Texas, my district is over on the east side where we 
produce a lot of natural gas, and yet 60 percent of our 
electricity in my district comes from coal, coal-fired plants. 
Thank you very much.
    Dr. Aines, your research--excuse me. In your prepared 
testimony, you mentioned the carbon economy and the future 
potential for growth and utilizing carbon as an input for 
manufacturing or industry. Both carbon dioxide and natural gas 
will be the main inputs to produce products from a carbon 
economy. Why is it important to have fossil energy research and 
development funding focused on all fossil fuels?
    Dr. Aines. There are many options needed in an economy as 
large and diverse as ours, and we simply can't afford to pick 
winners. It's certainly not my job to pick winners. It's my job 
to deliver solutions, and that's why we need research across 
the entire gamut.
    Mr. Babin. Thank you very much.
    And, Dr. Brun, in your opinion, if you've already spoken 
about this, stop me, but I didn't--I don't think you have. Will 
supercritical carbon dioxide power cycles begin to replace 
traditional steam and air cycles? And could investments by the 
energy sector in supercritical carbon technology help us to 
continue to take advantage of our abundant and affordable 
fossil energy?
    Dr. Brun. Yes, I think we can see on the low temperature 
wasted recovery side we can probably see something in the next 
three to five years. Obviously, there is hundreds and hundreds 
of powerplant, so it's not just an easy replacement. But I can 
foresee in the next 10, 15 years quite an impact from 
supercritical CO<INF>2</INF> and replacement of it, especially 
of steam cycles. On the air cycles, that's gonna take a little 
longer, but probably 10 to 15 years.
    Mr. Babin. Okay.
    Dr. Brun. The technology is moving fairly fast there.
    Mr. Babin. Glad to hear.
    And, Ms. Angielski, can you give an example of carbon 
capture, utilization, or storage research through investments 
by fossil energy industry that could lead to an advanced 
carbon-based technology?
    Ms. Angielski. There are several that were discussed here 
today, so certainly the supercritical CO<INF>2</INF> cycles. We 
identify several technologies in our roadmap, including 
pressurized oxygen combustion, which was described here today. 
We have some carbon-capture technologies that are looking for 
testing right now that, once tested, could actually begin to 
have commercial offerings available. So there are a suite of 
technologies, which, from our perspective, is very important to 
make sure that we have a diverse portfolio of technologies and 
that we're not just picking winners, as already discussed.
    Mr. Babin. Right.
    Ms. Angielski. And so--but there are several technologies 
identified in the roadmap that are readying for that testing to 
be able to then take that piece of paper to a financer and say 
we can offer commercial guarantees. So----
    Mr. Babin. Thank you. And I yield back, Mr. Chairman. Thank 
you.
    Chairman Weber. Thank you, Doctor.
    The gentleman from Alabama, Mo Brooks, is recognized for 
five minutes.
    Mr. Brooks. Mr. Chairman, I'll defer.
    Chairman Weber. Then the other gentleman from Alabama--
we've got both of them here today--is recognized for five 
minutes, Mr. Palmer.
    Mr. Palmer. The one who will not defer. Thank you, Mr. 
Chairman.
    This is very interesting to me. I've worked for two 
engineering companies prior to running a think tank for 24, 25 
years. I worked for Combustion Engineering and Environmental 
Systems Division. I see Dr. Brun nodding his head. We built 
scrubbers, precipitators, baghouses.
    And I just was wondering on the latest technology how 
effective are we at capturing CO<INF>2</INF> right now, Dr. 
Brun?
    Dr. Brun. It depends on how concentrated your stream of it 
is. If you're doing flue gas--I mean, you can capture 100 
percent of it, right? I mean, it's technically viable. It 
becomes a cost issue. So it's easier to--the more concentrated 
your stream and your flue gas is, the easier it is to capture 
it. And that's why we're pushing for the oxy-fuel and 
supercritical CO<INF>2</INF>-type cycles, but you can certainly 
remove CO<INF>2</INF> from the flue gas of a combined cycle 
plant.
    The only problem is that it is a low percentage, and so you 
have to scrub a lot more gas to get the CO<INF>2</INF> out. But 
even there you can remove 100 percent of the CO<INF>2</INF>. It 
just becomes a cost-of-electricity issue and how much cost you 
want to add to your cost of electricity. There's a technology 
there in that sense exists, and it's just a question of cost.
    Mr. Palmer. Well, one of the reasons I'm asking this is 
that when it comes to fossil energy, most of the time we're 
talking about--when we're talking about capturing carbon, we're 
talking about coal, but there are uses or potential uses for 
capturing CO<INF>2</INF> for unlocking oil resources from 
shale. And we've got the Green River Formation. Are you 
familiar with that?
    Dr. Brun. No, I'm not.
    Mr. Palmer. The Green River Formation--and I have a GAO 
report, which was part of a committee hearing I think in 2012 
that got very little attention in the media. ABC News reported 
on it. But the Green River Formation holds three trillion 
barrels of recoverable oil. That's three times what the entire 
world has used in the last 100 years and five or six times the 
known reserves of the Saudis. Just half of it would be more 
than the known--all of OPEC combined. About half of it, 1.4 
trillion, is the more recoverable, the richer deposits. But in 
your research do you see the potential for using captured 
carbon for releasing or having access to such oil deposits?
    Dr. Brun. Yes, I think using CO<INF>2</INF> for enhanced 
oil recovery is certainly a recognized usage of carbon dioxide, 
and the combination of oxy-fuel combustion plants where you get 
CO<INF>2</INF> out and then you inject that at high pressures 
into the formation to get enhanced oil recovery is something 
that has been discussed by many oil companies. I've given 
presentations on the topic actually. It's certainly a viable 
technology for----
    Mr. Palmer. But is it economically viable?
    Dr. Brun. Yes, it is. It is economically viable. It depends 
on your formation. It depends on your application, but there 
are certainly applications right now where it is economically 
viable, yes.
    Mr. Palmer. Do the Chinese or the Indian Government do 
anything in regard to carbon capture?
    Dr. Brun. The Chinese are doing quite a bit in that area. 
Maybe you can answer that, too, but----
    Mr. Palmer. Yes, anyone of the panel if you know the answer 
to that.
    Dr. Brun. Yes, the Chinese are very active, but you may 
have more information.
    Dr. Aines. Yes, the Chinese are in fact the most active 
nation in the world in this area doing large demonstrations and 
developing their own technology. The Indian Government has done 
very little to this day.
    Mr. Palmer. And the Indian economy is the fastest growing 
economy in the world, and they're building quite a--done quite 
a bit of building in regard to coal-fired power-generating 
facilities. Is that accurate?
    Dr. Aines. They are still building coal plants. It is 
decreasing there. They are building more renewables now than 
coal.
    Mr. Palmer. Good. Mr. Begger, in your testimony you 
mentioned the partnership between the Wyoming Integrated Test 
Center and the National Carbon Capture Center near Wilsonville, 
Alabama. That, by the way, is in my district. Can you give us a 
little more detail about the work that ITC intends to do 
through this partnership?
    Mr. Begger. Sure. Mr. Chairman, Congressman, the way that 
we see our role is complementing the work that National Carbon 
Capture Center, NETL, and the other labs have done. And a few 
years ago the state was looking about how to best get involved. 
And through the course of about a year and a half of reviewing 
critical gaps in testing infrastructure, what we recognized is 
that there are a lot of places to do small testing like the 
National Carbon Capture Center, on the backside of that coal-
fired power plant, they could test up to about 1-1/2-megawatt-
size projects. But utilities needed to see something larger 
before making that leap.
    And up until now really the only way to do that was a one-
on-one relationship between the technology developer going to a 
utility and asking to basically cut a hole in the side of their 
power plant and access some of their flue gas. And, as you can 
imagine, they were pretty reluctant to do that unless there was 
a long-standing relationship. So what we've done with that 
facility is sort of create the infrastructure there, a plug-
and-play system.
    And so what we would like to see, the most promising 
technologies that make it through there be that sort of 
graduate school for them to come and test. And another area is 
access to all of the incredible resources. You know, over years 
at Wilsonville, they've developed incredible institutional 
knowledge, engineering skills, and so having the ability to 
basically access their lessons learned and their best practices 
can hopefully help us prevent making those sort of same 
mistakes.
    Mr. Palmer. Well, this is all fascinating to me, Mr. 
Chairman. I, as I said, worked in engineering and environmental 
systems, and my brother-in-law worked for Southern Research and 
was an expert in scrubbers and baghouses, traveled all over the 
world. I would love for him to have been here. He probably 
would have had some better questions than me.
    With that, Mr. Chairman, I yield back.
    Chairman Weber. I thank the gentleman.
    The Ranking Member from Texas is recognized for another 
question.
    Mr. Veasey. Thank you, Mr. Chairman.
    Ms. Angielski, you know, as you know--and you've seen it on 
the news--the current Administration has strongly opposed 
practically any regulating of greenhouse gases. And many 
including the President and our former EPA Administrator have 
publicly questioned the validity of the broad scientific 
consensus on the current and growing threat of climate change.
    So in this context, please help us to a better understand 
why are there Carbon Utilization Research Council industry 
members like Peabody, Arch Coal, and the American Coal Council 
so supportive of developing carbon capture, utilization, and 
storage technologies that may ultimately impact their profits 
if they're ever required to deploy them? If you could kind of 
help us understand that, I think it would really go a long way.
    Ms. Angielski. Sure. Well, as indicated in my testimony, 
there's growing international use of all of our fossil fuel 
resources, and as a result of that, there's growing 
international consensus that we will need to do something to 
reduce the carbon footprint from the utilization of the fossil 
fuels. That's the position that we take when we look at 
evaluating technology development needs both for today, as well 
as what we're going to need in the future.
    As a result, and as I mentioned earlier, a lot of that 
focuses on the ability to reduce emissions of CO<INF>2</INF> 
and carbon dioxide. I think what's equally important about that 
is that many stakeholders, not just industry stakeholders but 
also those in the environmental community, also share in that 
consensus, which is we recognize the growth in these fuels and 
we will need to invest in these technologies in order to 
achieve any global climate objectives.
    At the same time, we've also heard that there's both 
environmental benefits from investing in these technologies, as 
well as economic benefits, and that's also another perspective 
that we take. When you look at these environmental benefits, 
for example, lower-cost CO<INF>2</INF> will be needed for 
enhanced oil recovery in the future. We have less and less 
CO<INF>2</INF> coming from natural sources that are currently 
mined and used for producing more oil from our depleting 
oilfields in this country. So a lot of the oil companies in 
this country are looking to power generators for those large 
volumes of CO<INF>2</INF> coming off of fossil fuels to be able 
to use that in enhanced oil recovery. So we're looking at that 
as a market opportunity as well.
    If we have, as was described earlier, maybe a waste product 
and CO<INF>2</INF> being vented in a flue gas stream, why not 
put that to good use and get some economic value out of it 
while also producing more domestic oil and ultimately producing 
a low-carbon barrel of oil as well, which is important to 
recognize?
    So there's both tracks that can be pursued. I think over 
the long term if--under any future scenario, I think we share a 
view that we may be living in a carbon-constrained world, and 
we want to make sure that we have those technologies available 
to enable us to continue to utilize our fossil fuel resources 
and to have them being competitive with all of the other low-
carbon generation sources that are available to us today as 
well.
    Mr. Veasey. Mr. Chairman, I yield back. Thank you.
    Chairman Weber. I thank the witnesses for their testimony 
and the Members for their questions. The record will remain 
open for two weeks for additional written comments and written 
questions from members.
    The hearing is adjourned.
    [Whereupon, at 11:50 a.m., the Subcommittees were 
adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions




                   Answers to Post-Hearing Questions
Responses by Mr. Jason Begger

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                              Appendix II

                              ----------                              


                   Additional Material for the Record




                  Documents submitted by Subcommittee
                         Ranking Member Veasey
                         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                         


                                 <all>
</pre></body></html>
